14

IN THE SUPREME COURT OF THE UNITED STATES
No.
Henry Eugene Gossage v. Office of Personnel Management

CERTIFICATE OF COMPLIANCE WITH RULE 33.1(g)
I, Henry E. Gossage, pro se veteran, hereby certify that, according to the word-count
tool in Microsoft Word, the Brief of Petitioner consists of 2961 words, including
footnotes and excluding the sections enumerated by Rule 33.1(d). The Brief
therefore complies with Rule 33.1(g).

PROOF OF SERVICE
I,.Henry E. Gossage, pro se veteran, hereby declare that on the certify that on this
/Jp day of April 2021, submitted Petition for Certiorari and Motion to Proceed as a
Veteran, to Ann C. Motto, Office of Personnel Management Trial Attorney Civil
Division in the above style proceeding, electronically via e-mail and depositing in
the U.S. mail, postage prepaid.
U.S. Attorney General
Civil Division-Commercial Litigation
P.O. Box 480
Ben Franklin Station
Washington, D.C. 20044

Pro se Veteran
9421 Johnson Pt Lp NE
Olympia, WA 98516
(360) 951-7826
hegossage @gmail.com

